(f 1' — ^A" ('^ O

^7

No.

Supreme Court, U.S.
FILED

AUG 2 5 2020
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

In re, Jimmy Wren, Petitioner.

No. 20-60313

ON PETITION FOR EXTRAORDINARY WRIT
OF PROHIBITION AND MANDAMUS
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT, AT NEW ORLEANS, LA.

PETITION FOR AN EXTRAORDINARY WRIT OF PROHIBITION
AND A WRIT OF MANDAMUS

Jimmy Wren, #66051
30 C Building B Zone bed #131
Mississippi State Penitentiary
Parch man, MS 38738-0000

received
1

SEP - 8 2020

QUESTIONS PRESENTED FOR REVIEW
1, Whether 28, §2244, U.S.C. deprives similar situated litigants of due process
of law?
2. Whether the enforcement of 28, §2244, U.S.C., subjects similar situated
litigants to cruel and unusual punishment?
3. Whether trial court violates due process by subjecting a first offender to the
maximum punishment to cruel and unusual punishment, in the absence of a
sentencing hearing to allow mitigating circumstances to justify the maximum
sentence being imposed?
4. Whether 28, §2244, U.S.C., violates due process, when there is no right to
seek further review by Motion to Rehear of Reconsideration?
5. Whether 28, §2244, U.S.C., violates due process when there is no right to an
appeal from the denial of an application for permission to file a second or
successive application for writ of habeas corpus?
6. Whether the requirement to seek permission to file a second or successive
application for habeas corpus relief violates the ex post facto clause of the
United States Constitution, when 28, §2244, U.S.C. did not exist in 1996
when this case originated?
7. Whether the state of Mississippi deprived the petitioner of due process, by
denying the Motion to Recall its Mandate, so petitioner could seek relief
under the new state rule under Rule 26.4, of Mississippi Rules of Criminal
Procedure, for a sentencing hearing, which was not available in 1996, when
this case originated?

2

QUESTIONS FOR REVIEW CONTINUE:
8. Whether the lower courts, State Supreme Court, District Court and U.S.
Court of Appeals for the Fifth Circuit, deprived the petitioner of access to the
courts to seek relief under the New Rule of Law, under Rule 26.4 of
Mississippi Rules of Criminal procedure, which allowed the litigants to have
a sentencing hearing, effective in July 1, 2017?
9. Whether the state courts were bias and prejudice towards the Petitioner, in
the prosecution and sentencing of Petitioner, Wrenn?
10. Whether lower courts violated due process by ordering monetary sanctions, in
the absence of a show cause hearing?

3

LIST OF PARTIES
Marshall

Turner,

Superintendent

of

the

Mississippi

State

Penitentiary; and the State of Mississippi are the only parties to this case
and both entities can be served through the Attorney General’s office for the
state of Mississippi.

RELATED CASES
Lester v. States 726 So. 2d 598 (Miss. Ct. of App. 1998) (Reversed and
remanded as to Lester only);

MISSISSIPPI STATE LAW
To subject a first offender or an offender that has never been declared
as a habitual offender to the maximum sentence that is allowed under §97-365, MCA would be an unjust decision, especially when there is a possibility
the final decision could possibly be the fruits of ‘abuse of discretion’ and a
violation of the cruel and unusual clause of the United States Constitution.
See, Rule 26.4, Mississippi Rules of Criminal Procedure (MRCP).
RULE 20 of the Supreme Court Rules
Marshall Turner, Superintendent of the Mississippi State Penitentiary
is the only party with the state of Mississippi. Relief is not available in any
other court, since there is no right to further review in cases from the U.S.
Court of Appeals for the Fifth Circuit in cases reviewed under 28, §2244,
U.S.C., by motions to rehear, reconsider or an appeal. Relief is not available
under habeas corpus since the court of appeals denied petitioner the
opportunity to file a second or successive application. This application is in
aid of this court’s appellate jurisdiction and the above exceptional
circumstances warrants the exercise of this Court’s discretionary powers, and
that adequate relief cannot be obtained in any other form or any other court.
4

TABLE OF CONTENTS

9

OPINION BELOW
JURISDICTION ...........................

10

CONSTITUTIONAL PROVISIONS

11

STATUTORY PROVISIONS

11

STATEMENT OF THE CASE

12

REASONS FOR GRANTING THE WRIT

13
. 15

CONCLUSION

5

INDEX TOAPPENTICES
APPENDIX ‘A’ - Order Denying Permission to file
a second or successive 2254
application for habeas corpus relief;

AP #1

APPENDIX ‘B’-Jury Instructions;

AP#3

APPENDIX *C*- Mississippi Supreme Court Imposing
Monetary sanctions, without a show
Cause hearing;..................................

AP#4

APPENDIX ‘D’- Order, Procedurally barring petitioner
From having access to the courts;........ AP#6
APPENDIX ‘E’- Order showing Petitioner consistently
Asked for a show cause hearing; ........ . AP#8

6

TABLE OF AUTHORITIES

Cases:
Berry v. States 728 So. 2d 568, 571 (Miss. 1999);
Cohen v. State 732 So. 2d 867 (Miss. 1998);
Duckworth v. State 477 So. 2d 935, 938 (Miss. 1985);
Henderson v. United States, 646 F. 3d 223;
In re Johnson v. United States 520 U. S. 461 - 468;
Johnson v. Zerbst, 304 U. S. 458 58 S. CT. 1019;
Milliken v. Meyer, 61 S. Ct. 339, 85 L. Ed. 2d 278 (1940);
Scott County Co-op v. Brown, 187 So. 2d 321 (Miss. 1966);
Thorpe v. Housing Authority of Durham, 393 U. S. 268;
United States v. Olano, 507 U. S. 725;
Thorpe v. Housing Authority of Durham, 393 U. S. 268;
Voyles v. State, 362 So. 2d 1236 (Miss. 1978);
Apprendi v. New Jersey, 530 U.S. 466;

United States Constitution
Amendment VIII; Prohibiting cruel and unusual punishment;
V and XIV Amendments, Guaranteeing
equal protection and due process under the laws;
Article 1, Section 9, Clause 3 for federal law;
Article 1, Section 10, for state laws;
Prohibiting ex post facto laws;

7

Statutes:
28, §2244, United States Codes
§97-3-65, Mississippi Codes Ann.
28, §1651 (a), U.S.C.

Rules:
Rules 26.4 of the Mississippi Rules of Criminal Procedure;

8

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR EXTRAORDINARY WRIT
OF PROHIBITION AND WRIT OF MANDAMUS
Petitioner respectfully prays that an extraordinary writ of prohibition and
mandamus issue to review the judgment below.

OPINIONS BELOW
[ x ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
‘A’ to the petition and is:
[ x ] Unpublished;
[ x 1 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ‘C’, ‘D’ and ‘E’to the petition and are:
[x] Unpublished;

9

%

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided m case
was May 14, 2020;
[x] There are no provisions for a rehearing from proceedings seeking
permission to file a second or successive application for a 2254 habeas corpus
relief;
[x] There are no provisions for further review by appellate jurisdiction to
justify review by writ of certiorari;
The jurisdiction of this court is invoked under 28, U.S.C., §1651 (a).

10

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
United States Constitution
Amendment VIII; Prohibiting cruel and unusual punishment;
V and XIV Amendments, Guaranteeing
equal protection and due process under the laws;
Article 1, Section 9, Clause 3 for federal law;
Article 1, Section 10, for state laws;
Prohibiting ex post facto laws;

Statutes
28, §2244, United States Codes
§97-3-65, Mississippi Codes Ann.
28, §1651 (a), U.S.C.

Rules:
Rules 26.6 of the Mississippi Rules of Criminal Procedure;

11

STATEMENT OF THE CASE
This case originated in U.S. Court of Appeal, pursuant to 28, §2244,
U.S.C., by Petitioner, Jimmy Wren [Petitioner, hereinafter], requesting
permission to file a second or successive application for a writ of habeas
corpus, seeking relief under the New Rule of law in the state of Mississippi.
The New Rule of law was created under Rule 26.4 of the Mississippi Rules of
Criminal Procedure [MRCP] that provided similar situated litigants the
opportunity to have a sentencing hearing, effective in July 1, 2017.
At a sentencing hearing. Petitioner would have had an opportunity to
show the court, through witness testimony and other means that his
character was not bad enough to warrant the maximum sentence since
petitioner was a first offender.
The state would likewise have an opportunity to show the court,
mitigating circumstances that demand the enhancement of the punishment
to justify the imposition of the life sentence without the possibility of a
parole.
Petitioner’s claim is based on the fact, the New Rule of law under Rule
26.4 of the MRCP, effective July 1, 2017, denied due process and equal
protection under the laws when not applied retroactively.

12

REASONS FOR GRANTING THE PETITION
Petitioner, Jimmy Wren, Pro se and as a young black man at the age of
18 years old, with a tenth (10th) grade education, was brought to trial with his
older uncle and co-defendant, Stanley Lester to defend against a capital rape
charge and the co-defendant was only charged with accessary, even though
both were equally guilty, Stanley’s conviction was reversed on appeal, based
on the jury instruction being a violation for due process, when the same jury
instructions was used against the Petitioner also.
Petitioner believes that he was convicted because of the inability to get
more than one attorney, when Stanley had at least three (3) attorneys; and
petitioner’s conviction, prosecution and sentence was the fruit of bias and
prejudice towards petitioner and an abuse of discretion.
The U. S. Court of Appeals should have granted the application to file
a second or successive application for habeas corpus because the actions of
the trial court created a conflict with a New Rule of law under case, Apprendi
v. New Jersey, 530 U.S. 466, because there is nothing in the record to indicate
Petitioner deserved the maximum enhanced life sentence, without the
possibility of parole and being a first offender.
The Court of Appeals abused its discretion by denying the application
for permission to file a second or successive application for relief by habeas
corpus, from the judgment of the state court imposing monetary sanctions for
criminal contempt, without a show cause hearing or a trial to defend against
the imposition of monetary sanctions.
The state supreme court abused its discretion by barring the petitioner
of having access to the court to seek relief from the criminal conviction for
procedure defects, when the court had knowledge that petitioner was

13

uneducated and untrained and had no knowledge of what procedures were
involved.

Reasons for granting the petition continues:
Title 28, §2244 of the United States Codes is unconstitutional and
violates due process and deprives similar situated litigants of equal
protection under the law, based on the facts:
[1]

This statute places the legal burden on litigants and causes them to be

denied access to the courts, when some of them are untrained, uneducated
and have no knowledge of what is expected of them, within a specified time
period;
[2]

This statute created ex post facto laws in violation of the United States

Constitution, and take away many legal remedies from litigants that were
available to they, before the enactment of 28, §2244, United States Codes;
[3]

This statute is unconstitutional because it requires litigants to ask the

Court of Appeals for permission to exercise their federal protected rights to
have access to the courts, based on restricted reasons and grounds; and their
decisions are final;

[4]

There is no right or remedy to ask for a rehearing or further

consideration from final decisions from the Court of Appeals denying
applications for permission to file a second or successive application for
habeas corpus relief;

14

[5]

There is no right to appeal a final decision from the Court of Appeals,

denying an application seeking permission to file a second or successive
petition for habeas corpus relief;

CONCLUSION
The petition for extraordinary writ of prohibition and mandamus
should be granted.
Respectfully submitted,
)S>

Oimmy Wren, 66051

y/Wao__
Date

15

